Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





   NATIONAL INSTITUTES OF 

    HEALTH: CONFLICTS OF 

   INTEREST IN EXTRAMURAL 

         RESEARCH





                    Daniel R. Levinson

                     Inspector General 


                      January 2008

                     OEI-03-06-00460

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                                         S U M M A R Y


                  OBJECTIVES
                          1.	 To determine the number and nature of financial conflicts of
                              interest reported by grantee institutions to the National
                              Institutes of Health (NIH).

                          2.	 To determine the extent to which NIH oversees grantee
                              institutions’ financial conflicts of interest.


                  BACKGROUND
                  NIH research grants are awarded through 24 Institutes and Centers
                  (Institutes) that have grant-making authority. Each Institute is
                  responsible for the daily management and oversight of its grants, and
                  each has its own grants management office that handles the grants
                  oversight and administrative functions. Institutes follow the grants
                  management policies outlined in the NIH Grants Policy Statement
                  developed and implemented by NIH’s Office of Extramural Research
                  (OER). OER provides grantees with information about relevant policies
                  and regulations through its Web site and through outreach activities
                  such as targeted site reviews, regional seminars, and a bimonthly
                  newsletter. OER also develops and maintains information systems
                  related to extramural research grants administration.

                  Pursuant to Federal regulations, each grantee institution receiving NIH
                  funds must have a written policy for identifying financial conflicts of
                  interest and ensuring that conflicts will be managed, reduced, or
                  eliminated. Grantee institutions must certify that they have written
                  and enforced administrative processes to identify and manage, reduce,
                  or eliminate conflicting interests. They must also certify that existing
                  conflicts of interest (but not the nature of the interest or other details)
                  will be reported to the Public Health Service awarding component prior
                  to the expenditure of any funds under that award; that these conflicts
                  have been managed, reduced, or eliminated; and that any subsequently
                  identified conflicts will be reported and the conflicts will be managed,
                  reduced, or eliminated, at least on an interim basis, within 60 days of
                  identification.

                  We requested information regarding the receipt and oversight of
                  grantee institutions’ financial conflict-of-interest reports from OER and
                  the 24 Institutes with grant-making authority.




OEI-03-06-00460   N AT I O N A L I N S T I T U T E S   OF   H E A LT H : C O N F L I C T S   OF   INTEREST   IN   EXTRAMURAL RESEARCH   i
E X E C U T I V E                          S U               M M A R Y 




                   FINDINGS
                   NIH could not provide an accurate count of the financial
                   conflict-of-interest reports that it received from grantees during
                   fiscal years 2004 through 2006. NIH provided us with 438 financial
                   conflict-of-interest reports for fiscal years (FY) 2004 through 2006.
                   However, this number does not represent the total number of conflicts of
                   interest reported by grantee institutions because NIH’s Institutes and
                   OER were unable to provide us with all of the actual conflict-of-interest
                   reports they received from grantee institutions.

                   NIH does not have a central source that can provide a total count of
                   financial conflict-of-interest reports because OER’s database of financial
                   conflict-of-interest reports is incomplete. Although the Institutes are
                   asked to send all conflict-of-interest reports to OER, we found that OER
                   and the Institutes did not send us the same reports for the 3-year
                   period.
                   NIH is not aware of the types of financial conflicts of interest that
                   exist within grantee institutions because details are not required to
                   be reported and most conflict-of-interest reports do not state the
                   nature of the conflict. Although Federal regulations require grantee
                   institutions to report financial conflicts of interest, the regulations do
                   not explicitly require the nature of the conflict or other details to be
                   reported. At least 89 percent of financial conflict-of-interest reports did
                   not state the nature of the conflicts or how they would be managed.
                   Because these reports contain minimal detail, grants officials have little
                   information on which to follow up.

                   We determined that 30 of the 438 reports we reviewed included detailed
                   financial conflict-of-interest descriptions. These reports described cases,
                   for example, in which investigators have intellectual property
                   associated with the grant research or financial interests in companies
                   that are subcontractors on the research grants. Fifteen reports
                   provided a detailed description of how conflicts would be managed,
                   reduced, or eliminated. These methods included disclosing the financial
                   conflicts of interest in presentations and publications related to the
                   research and appointing independent faculty members to provide
                   oversight of the grant research or to review research reports.

                   The information we reviewed in the 45 reports that did contain detailed
                   information regarding the nature and management of conflicts could
                   assist NIH officials in making a determination as to whether followup
                   with the grantee institutions is necessary.

 OEI-03-06-00460   N AT I O N A L I N S T I T U T E S   OF   H E A LT H : C O N F L I C T S   OF   INTEREST   IN   EXTRAMURAL RESEARCH   ii
E X E C U T I V E                          S U               M M A R Y


                   Many Institutes’ primary method of oversight is reliance on grantee
                   institutions’ assurances that financial conflict-of-interest regulations
                   are followed. According to the NIH Grants Policy Statement, the
                   grantee’s roles and responsibilities have assumed greater importance as
                   NIH relegates greater decisionmaking authority to grantees. Many
                   Institutes rely on the good faith of the grantee institutions to ensure
                   compliance with Federal financial conflict-of-interest regulations, rather
                   than directly overseeing or reviewing grantee institutions’ management
                   of financial conflicts of interest.

                   We found that the majority of the Institutes do not have any proactive
                   methods for ensuring that grantees have financial conflict-of-interest
                   policies. Several Institutes stated that they rely solely on information
                   published by OER to ensure that grantees have conflict-of-interest
                   policies in place. OER provides grantees with information about the
                   relevant policies and regulations through its Web site. OER also
                   conducts outreach activities, such as targeted site reviews, regional
                   seminars, and a bimonthly newsletter to grantee institutions.

                   Institutes infrequently and inconsistently follow up on reported
                   financial conflicts of interest. Our review found very few cases in which
                   Institutes followed up with grantee institutions regarding the nature of
                   a financial conflict of interest and/or the management plan for a
                   financial conflict of interest.


                   RECOMMENDATIONS
                   NIH provides billions of dollars to institutions in the form of research
                   grants. It is imperative that the funds provided to grantee institutions
                   be used appropriately and that the research conducted using these
                   funds not be biased because of any conflicting financial interests of
                   investigators. Although the responsibility of complying with Federal
                   financial conflict-of-interest regulations ultimately falls to the grantee
                   institution, NIH, as an oversight body, should take a more active role in
                   overseeing financial conflicts of interest among grantee institutions.

                   We recommend that NIH:
                   Increase oversight of grantee institutions to ensure their compliance
                   with Federal financial conflict-of-interest regulations.
                   Require grantee institutions to provide details regarding the nature
                   of financial conflicts of interest and how they are managed, reduced,
                   or eliminated.

 OEI-03-06-00460   N AT I O N A L I N S T I T U T E S   OF   H E A LT H : C O N F L I C T S   OF   INTEREST   IN   EXTRAMURAL RESEARCH   iii
E X E C U T I V E                          S U               M M A R Y


                   Require Institutes to forward to OER all financial conflict-of-interest
                   reports that they receive from grantee institutions and ensure that
                   OER’s conflict-of-interest database contains information on all
                   conflict-of-interest reports provided by grantee institutions.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   NIH stated that all of our findings were correct and concurred with two
                   of our three recommendations. NIH did not concur with our
                   recommendation to require grantee institutions to provide details
                   regarding the nature of financial conflicts of interest and the way in
                   which they are managed, reduced, or eliminated. NIH believes that
                   although it is vital to maintain objectivity in research, responsibilities
                   for identifying and managing financial conflicts of interest must remain
                   with grantee institutions. Furthermore, NIH stated that its collection
                   of specific details of the nature and management of financial conflicts of
                   interest would effectively transfer the responsibility for managing
                   financial conflicts of interest from the grantee institutions to the
                   Federal Government.

                   The Office of Inspector General (OIG) continues to recommend that NIH
                   should collect details of the nature and management of financial
                   conflicts of interest as part of its oversight responsibility of grantee
                   institutions. Collection of this information can be accomplished without
                   interfering with grantee institutions’ legal responsibility for managing
                   financial conflicts of interest.

                   We continue to recommend that NIH work with the Secretary of the
                   Department of Health and Human Services to amend the current
                   regulation and that NIH use its authority pursuant to
                   42 CFR § 50.604(g)(3) to request details regarding the nature and
                   management of financial conflicts of interest at grantee institutions.




 OEI-03-06-00460   N AT I O N A L I N S T I T U T E S   OF   H E A LT H : C O N F L I C T S   OF   INTEREST   IN   EXTRAMURAL RESEARCH   iv
B   A N N   E R       2 N D             P A G E
Δ    T A B L E             O F            C O N T E N T S



             EXECUTIVE SUMMARY .....................................i




             INTRODUCTION ........................................... 1




             FINDINGS ................................................. 9

                        NIH could not provide an accurate count of financial 

                        conflict-of-interest reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9 


                        NIH is not aware of the types of financial conflicts of interest 

                        that exist at grantee institutions . . . . . . . . . . . . . . . . . . . . . . . . . . 11 


                        Many Institutes’ primary method of oversight is reliance on

                        grantee institutions’ assurances that regulations are followed. . . 13 



             R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 

                        Agency Comments and Office of Inspector General Response . . . 18 


             A P P E N D I X . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 

                        Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 




             A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23 

Δ
Δ   I N T R O D U C T I O N


                  OBJECTIVES
                          1.	 To determine the number and nature of financial conflicts of
                              interest reported by grantee institutions to the National
                              Institutes of Health (NIH).

                          2.	 To determine the extent to which NIH oversees grantee
                              institutions’ financial conflicts of interest.


                  BACKGROUND
                  Each grantee institution receiving NIH funds must have a written
                  policy for identifying financial conflicts of interest and ensuring that
                  conflicts will be managed, reduced, or eliminated. Because outside
                  activities may create actual or perceived conflicts of interest, it is
                  essential that conflict-of-interest issues be addressed not only among
                  NIH intramural researchers but also among extramural researchers
                  receiving NIH grants. With 80 percent of NIH funding allocated for
                  extramural research grants, it is critical that any existing or potential
                  financial conflicts of interest be identified, disclosed, eliminated,
                  reduced, and/or managed by grantee institutions.
                  National Institutes of Health Grants Administration and Oversight
                  NIH, located within the Department of Health and Human Services
                  (HHS), is the primary Federal agency responsible for conducting and
                  supporting medical research. Organized into 27 Institutes and Centers
                  (Institutes), NIH receives billions of dollars annually to support its
                  mission. In fiscal year (FY) 2007, the total NIH appropriation was over
                  $29.2 billion, 80 percent of which was distributed through almost
                  50,000 competitive grants to more than 325,000 researchers at over
                  3,000 universities, medical schools, and other research institutions
                  across the country and around the world.1
                  Twenty-four of the twenty-seven Institutes have grant-making
                  authority. Each of these 24 Institutes is responsible for managing and
                  overseeing its grants, and each has its own grants management staff
                  that handle these functions. Grants management specialists within
                  each Institute are responsible for the day-to-day management of a
                  portfolio of grants. The chief grants management officer (grants officer)


                    1 NIH budget information. Available online at www.nih.gov/about/budget.htm. Accessed
                  April 27, 2007.



OEI-03-06-00460   N AT I O N A L I N S T I T U T E S   OF   H E A LT H : C O N F L I C T S   OF   INTEREST   IN   EXTRAMURAL RESEARCH   1
I N T R O D        U C T              I O N


                    of each Institute is the NIH official responsible for the business
                    management and other nonprogrammatic aspects of the award.

                    Institutes follow the grants management policies outlined in the NIH
                    Grants Policy Statement developed and implemented by NIH’s Office of
                    Extramural Research (OER). OER also develops and maintains
                    information systems related to extramural research grants
                    administration.
                    Financial Conflicts of Interest
                    Federal regulations at 42 CFR Part 50, Subpart F, establish standards
                    to ensure that the design, conduct, or reporting of research funded
                    under Public Health Service (PHS) grants will not be biased by any
                    conflicting financial interest of an investigator. The regulations at
                    42 CFR § 50.605(a) provide that a conflict of interest exists when the
                    designated official at the grantee institution “reasonably determines
                    that a significant financial interest could directly and significantly
                    affect the design, conduct, or reporting of the PHS-funded research.”
                    Pursuant to 42 CFR § 50.603, a significant financial interest is defined
                    as anything of monetary value, including, but not limited to, salaries or
                    other payments, equity interests, and intellectual property rights. The
                    regulation excludes from this definition salaries or other payments from
                    the investigator’s institution, income from public or nonprofit entities
                    for selected services, salaries or other payments for services not
                    expected to exceed $10,000 in a 12-month period from other sources, and
                    equity interests not exceeding $10,000 in fair market value and not
                    representing more than 5-percent ownership interest in any single
                    entity.
                    Responsibility of Grantee Institutions
                    According to the NIH Grants Policy Statement, grantee institutions
                    must have written standards of conduct that establish safeguards to
                    prevent employees, consultants, or members of governing bodies from
                    using their positions for purposes that are, or give the appearance of
                    being, motivated by financial gain for themselves or for others with
                    whom they have close ties.

                    Pursuant to 42 CFR Part 50, Subpart F, each grantee institution
                    receiving NIH funds must have a written policy for identifying financial
                    conflicts of interest and ensuring that conflicts will be managed,




 OEI-03-06-00460    N AT I O N A L I N S T I T U T E S   OF   H E A LT H : C O N F L I C T S   OF   INTEREST   IN   EXTRAMURAL RESEARCH   2
I N T R O D        U C T              I O N


                    reduced, or eliminated. 2 These guidelines must also indicate how
                    outside activities, relationships, and financial interests are reviewed by
                    responsible and objective institution officials. Pursuant to
                    42 CFR § 50.604, each institution must:

                                (a) Maintain an appropriate written, enforced policy on conflict of
                                    interest . . . and inform each investigator of that policy, the
                                    investigator’s reporting responsibilities, and of these
                                    regulations. If the institution carries out PHS-funded research
                                    through subgrantees, contractors, or collaborators, the
                                    institution must take reasonable steps to ensure that
                                    investigators working for such entities comply with this
                                    subpart. . . .

                                (b) Designate an institutional official(s) to solicit and review
                                    financial disclosure statements from each investigator who is
                                    planning to participate in PHS-funded research.

                                (c) (1) Require that by the time an application is submitted to
                                    PHS, each investigator . . . planning to participate in the
                                    PHS-funded research has submitted to the designated
                                    official(s) a listing of . . . known significant financial interests
                                    (and those of his/her spouse and dependent children): (i) that
                                    would reasonably appear to be affected by the research . . . and
                                    (ii) in entities whose financial interest would reasonably
                                    appear to be affected by the research. (2) All financial
                                    disclosures must be updated during the period of award, either
                                    on an annual basis or as new reportable significant financial
                                    interests are obtained.

                                (d) Provide guidelines . . . for the designated official(s) to identify
                                    conflicting interests and . . . ensure that such conflicting
                                    interests will be managed, reduced, or eliminated.

                                (e) Maintain records of all financial disclosures and all actions
                                    taken by the institution with respect to each conflicting
                                    interest for at least 3 years from the date of submission of the
                                    final expenditures report. . . .

                                (f) Establish adequate enforcement mechanisms and provide for
                                    sanctions where appropriate.

                      2 Small Business Innovation Research Program and Small Business Technology Transfer
                    Program Phase I awardees are not subject to these Federal conflict-of-interest regulations.



 OEI-03-06-00460    N AT I O N A L I N S T I T U T E S   OF   H E A LT H : C O N F L I C T S   OF   INTEREST   IN   EXTRAMURAL RESEARCH   3
I N T R O D        U C T              I O N


                                (g) Certify . . . that: 	(1) there is in effect . . . a written and
                                    enforced administrative process to identify and manage,
                                    reduce, or eliminate conflicting interests . . . (2) prior to the
                                    institution’s expenditure of any funds . . . the institution will
                                    report to the PHS awarding component the existence of a
                                    conflicting interest (but not the nature of the interest or other
                                    details) found by the institution and assure that the interest
                                    has been managed, reduced or eliminated . . . and, for any
                                    interest that the institution identifies as conflicting
                                    subsequent to the . . . initial report . . . the report will be made
                                    and the conflicting interest managed, reduced, or eliminated,
                                    at least on an interim basis, within 60 days of that
                                    identification; (3) the institution agrees to make information
                                    available, upon request, to the HHS regarding all conflicting
                                    interests identified by the institution and how those interests
                                    have been managed, reduced, or eliminated to protect the
                                    research from bias.

                    The NIH Grants Policy Statement and the NIH grant application
                    explain the financial disclosure responsibilities of grantees.3 By signing
                    a grant application, the designated representative of the grantee
                    institution is certifying that the applicant organization will comply with
                    all applicable assurances and certifications referenced in the
                    application, including those related to financial conflicts of interest.
                    Grantees can find more information about their responsibilities
                    regarding conflicts of interest on the OER Web site, which contains
                    multiple links to additional conflict of interest resources.4 Information
                    on OER’s Web site includes the NIH Guide for Grants and Contracts;
                    NIH Regional Seminars, which provide education and training on
                    regulations and policies; and the NIH Extramural Nexus, a bimonthly
                    newsletter from OER that provides updates on NIH policies and
                    activities. OER also conducts presentations regarding financial conflicts
                    of interest at professional meetings.




                        3 NIH Grants Policy Statement. Available online at
                    http://grants.nih.gov/grants/policy/nihgps_2003/index.htm. NIH grant application.
                    Available online at http://grants.nih.gov/grants/funding/phs398/PolAssurDef.pdf. Both
                    accessed August 22, 2007.
                      4 Available online at http://grants1.nih.gov/grants/policy/coi/index.htm.
                    Accessed May 3, 2007.



 OEI-03-06-00460    N AT I O N A L I N S T I T U T E S   OF   H E A LT H : C O N F L I C T S   OF   INTEREST   IN   EXTRAMURAL RESEARCH   4
I N T R O D        U C T              I O N


                    National Institutes of Health Oversight of Financial Conflicts of Interest
                    Although OER and Institutes share responsibility for outreach to and
                    education of grantees with regard to financial conflicts of interest, each
                    Institute must directly oversee its grantees in this regard. Grantees
                    must inform their respective funding Institute’s grants officer of any
                    financial conflicts of interest before spending any NIH funds under a
                    new grant. Conflicts identified during the grant period must be
                    reported to the grants officer within 60 days of identifying them. These
                    reports must indicate whether the financial conflict of interest has been
                    managed, reduced, or eliminated. Institutes are asked, but not
                    required, to forward reports of grantee financial conflict of interest to
                    OER. OER developed an internal database in 2004 to capture the
                    financial conflict-of-interest reports forwarded by the Institutes to OER;
                    the database contains data from FY 2000 to the present.

                    Institute procedures for reviewing financial conflict-of-interest reports
                    are based on guidance posted on the internal NIH Grants Management
                    Infonet “How-To” Web site. This guidance states that the Institutes
                    should share reports with the appropriate Institute personnel; send a
                    letter acknowledging receipt of the reported financial conflict of interest
                    to the grantee; send a copy of the report to the Director of the Division of
                    Grants Policy and Oversight, Office of Policy for Extramural Research
                    Administrations within OER and ensure that all correspondence
                    relating to the conflict is maintained in the official file; and request
                    additional information from the grantee and take corrective action, if
                    necessary.
                    National Institutes of Health Targeted Site Reviews
                    In FY 2006, the Office of Policy for Extramural Research
                    Administration began conducting targeted site reviews of grantee
                    institutions. The targeted site review program is part of NIH’s
                    oversight responsibilities and was developed to determine whether:
                    (1) grantee institutions are fully and correctly implementing the
                    financial conflict-of-interest regulations at 42 CFR Part 50, Subpart F;
                    and (2) reporting requirements are being met. NIH conducted
                    18 targeted site reviews in FY 2006. The 18 grantee institutions
                    reviewed represented approximately $4 billion in research grant awards
                    for FY 2005.5 NIH reported that the $4 billion represented

                      5 “Observations from NIH’s FY 2006 Targeted Site Reviews on Financial Conflict of
                    Interest.” Available online at http://grants1.nih.gov/grants/policy/coi/index.htm. Accessed
                    June 8, 2007.



 OEI-03-06-00460    N AT I O N A L I N S T I T U T E S   OF   H E A LT H : C O N F L I C T S   OF   INTEREST   IN   EXTRAMURAL RESEARCH   5
I N T R O D        U C T              I O N


                    approximately 25 percent of total research grant awards for FY 2005.
                    NIH found no instances of intentional noncompliance by grantee
                    institutions but found that more emphasis is needed on the appropriate
                    definition of “investigator” as listed at 42 CFR § 50.603. NIH observed
                    that grantee institutions have the most difficulty identifying and
                    reporting financial conflicts that arise after the start of the research
                    project and obtaining disclosures from investigators who join the project
                    after its inception.6 Other compliance issues included (1) not having
                    provisions in place to ensure that identified conflicts are reported to
                    NIH by subgrantees through the prime grantee, (2) not having a
                    consistent reporting process in place, (3) submitting grant applications
                    prior to collecting significant financial interests information from
                    investigators, and (4) expending grant funds prior to reporting
                    identified financial conflicts of interest to NIH.7


                    METHODOLOGY
                    Scope
                    This study is limited to NIH’s oversight of financial conflicts of interest
                    among grantee institutions. Although NIH also allocates funds to
                    contractors, we focused only on grantees because the majority of NIH
                    funding is allocated for research grants. In addition, NIH contractors
                    are required to adhere to a separate set of Federal regulations
                    governing conflicts of interest.
                    Data Sources and Data Collection
                    We collected information from the 24 grant-making Institutes at NIH
                    and from OER. We requested the following information:

                    (1) Copies of all financial conflict-of-interest reports as well as
                    documentation related to these reports that the 24 grant-making
                    Institutes received from grantee institutions during FYs 2004 through
                    2006.

                    (2) Copies of all financial conflict-of-interest reports and associated
                    documentation that OER received from Institutes during FYs 2004
                    through 2006.




                        6 Ibid. 

                        7 Ibid. 





 OEI-03-06-00460    N AT I O N A L I N S T I T U T E S   OF   H E A LT H : C O N F L I C T S   OF   INTEREST   IN   EXTRAMURAL RESEARCH   6
I N T R O D        U C T              I O N


                    (3) An electronic copy of the OER database that houses the financial
                    conflict-of-interest reports forwarded by the Institutes to OER.

                    We also sent surveys to the Director of the Division of Grants
                    Compliance and Oversight and the grants officers at each of the
                    24 grant-making Institutes. The Director and all 24 grants officers
                    responded to our survey. Our questions covered topics such as how
                    these offices ensure that financial conflicts of interest are reported to
                    them; what policies and procedures for overseeing grantee conflicts of
                    interest exist; and whether there are procedures in place to ensure that
                    reported financial conflicts of interest have been managed, reduced, or
                    eliminated.
                    Data Analysis
                    Some financial conflict-of-interest reports mentioned conflicts related to
                    more than one grant. In these cases, we considered the conflicts
                    mentioned for each grant to be a separate report.

                    We compared the records in OER’s database to the paper copies of
                    financial conflict-of-interest reports we received from OER to determine
                    whether any paper reports were not entered into the database and
                    whether there were entries in the database for which we did not receive
                    corresponding paper reports. We then compared both OER’s paper
                    reports and electronic entries with the paper reports we received from
                    the Institutes to determine what reports OER and Institutes had in
                    common. Combining all paper reports gave us a total of 438 unique
                    financial conflict-of-interest reports for our review and analysis.8 OER’s
                    database contained 30 entries for which we did not receive
                    corresponding paper reports from either OER or the Institutes.

                    From the survey data, we determined the frequency of responses to
                    closed-ended survey questions and reviewed and categorized responses
                    to open-ended survey questions.
                    Limitations
                    For our analysis, we used the 438 financial conflict-of-interest reports
                    that were received in paper form. The 30 electronic entries in OER’s
                    database for which there were no corresponding paper reports were
                    eliminated from our analysis because we did not have the source
                    documentation to verify them.


                      8 OER and Institutes submitted some financial conflict-of-interest reports that were
                    outside our timeframe and were therefore not included in our analysis.



 OEI-03-06-00460    N AT I O N A L I N S T I T U T E S   OF   H E A LT H : C O N F L I C T S   OF   INTEREST   IN   EXTRAMURAL RESEARCH   7
I N T R O D        U C T              I O N


                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-03-06-00460    N AT I O N A L I N S T I T U T E S   OF   H E A LT H : C O N F L I C T S   OF   INTEREST   IN   EXTRAMURAL RESEARCH   8
 F   I N D I N G         S
Δ        F I N D I N G S


 NIH could not provide an accurate count of the                 NIH provided us with
                                                                438 financial conflict-of-interest
      financial conflict-of-interest reports that it
                                                                reports for FYs 2004 through
received from grantees during fiscal years 2004
                                                                2006: 73 for FY 2004, 139 for
                                     through 2006               FY 2005, and 226 for FY 2006.
                       However, these numbers may not truly represent the total number of
                       conflicts of interest reported by grantee institutions. NIH’s Institutes
                       and OER were unable to provide us with paper copies of all of the actual
                       conflict-of-interest reports received from grantee institutions. Some of
                       the Institutes were also unable to provide an accurate count or even an
                       estimate of the reports that they received during the 3-year period.
                       According to OER, the Institutes are the official receipt point for
                       financial conflict-of-interest reports from grantee institutions. The
                       Institute is responsible for reviewing reports, determining whether
                       further specific information is needed, and maintaining documentation.
                       OER provided the following explanation for why Institutes were unable
                       to provide all of the conflict-of-interest reports requested:

                                   . . . the majority of [Institutes] maintain these reports with
                                   individual grant files by grant number. Unfortunately, because
                                   NIH has approximately 40,000–50,000 active grant awards at any
                                   given time, and each grant file contains thousands of pages of
                                   documents, finding every conflict of interest notification would
                                   require searching manually each individual grant file.9
                       NIH does not have a central source that could provide a total count of
                       financial conflict-of-interest reports because the Office of Extramural
                       Research’s database of financial conflict-of-interest reports is incomplete
                       OER’s database is the only centralized database in NIH that contains
                       conflict-of-interest reports from across the Institutes. OER asks, but does
                       not require, Institutes to forward to it the financial conflict-of-interest
                       reports that they receive. Because the Institutes are not required to
                       provide OER with conflict-of-interest reports, OER maintains that its
                       database is not the official repository for all financial conflict-of-interest
                       reports and that Institutes are responsible for maintaining documentation.
                       We found that OER’s database of financial conflict-of-interest reports was
                       incomplete. We found that 27 conflict-of-interest reports among the


                           9 E-mail correspondence, dated March 21, 2007, from the Director of the Division of
                       Grants Compliance and Oversight regarding the Office of Inspector General’s request for all
                       conflict-of-interest reports.



     OEI-03-06-00460   N AT I O N A L I N S T I T U T E S   OF   H E A LT H : C O N F L I C T S   OF   INTEREST   IN   EXTRAMURAL RESEARCH   9
F   I N D I N G         S


                      276 provided to us by OER were not included in its database. Although all
                      24 Institutes responded to our survey that they forward the reports to
                      OER, we received an additional 36 financial conflict-of-interest reports
                      from the Institutes that were not provided to us by OER. Table 1 below
                      shows the number of reports received from the Institutes and OER.


                      Table 1. Number of Financial Conflict-of-Interest Reports Provided
                      by NIH for FYs 2004 Through 2006
                          Source of Financial Conflict-of-Interest Reports                                                        Number of Reports

                          Provided by Institutes and OER                                                                                    126

                          Provided by Institutes only                                                                                        36

                          Provided by OER only                                                                                              276

                              Total                                                                                                         438

                      Sources: NIH, 13 Institutes, and OER.



                      Nearly half of the Institutes were unable to provide any financial disclosure
                      reports for fiscal years 2004 through 2006
                      Thirteen of the twenty-four Institutes provided us with 162 financial
                      conflict-of-interest reports for FYs 2004 through 2006. Eleven
                      Institutes did not provide any reports for the 3-year period.10 The
                      162 reports provided by the 13 Institutes may not represent all of the
                      reports they received from grantee institutions. According to NIH, some
                      of the Institutes may have provided only those reports that were readily
                      accessible.11
                      Besides requesting the actual conflict-of-interest reports, we also asked
                      the Institutes to provide us with the number of reports that they had
                      received for FYs 2004 through 2006. For 2006, 11 Institutes were able
                      to provide us with the number of reports, 10 provided estimates, and
                      3 could provide neither. For FYs 2004 and 2005, four Institutes were

                        10 One of the eleven Institutes sent conflict-of-interest reports but not for the
                      FYs 2004–2006 period.
                        11E-mail correspondence, dated March 21, 2007, from the Director of the Division of
                      Grants Compliance and Oversight regarding the Office of Inspector General’s request for all
                      conflict-of-interest reports.




    OEI-03-06-00460   N AT I O N A L I N S T I T U T E S   OF   H E A LT H : C O N F L I C T S   OF   INTEREST   IN   EXTRAMURAL RESEARCH         10
F   I N D I N G         S


                      unable to provide us with any information. Therefore, we cannot
                      determine an actual or estimated number of reports that the Institutes
                      received from grantee institutions during these years.
                      Conflict-of-interest reporting information is not readily available even from
                      Institutes that have tracking systems
                      Thirteen of the twenty-four Institutes indicated that they have systems
                      for tracking the financial conflict-of-interest reports that they receive
                      from grantees. Five of these Institutes’ systems were developed
                      sometime in FY 2007. Of the 11 Institutes that were not able to provide
                      us with conflict-of-interest reports for FYs 2004 through 2006, five had
                      tracking systems and three had systems that captured financial
                      conflict-of-interest reports for all 3 years.

                      To retrieve information or to obtain a count of past financial
                      conflict-of-interest reports, 11 Institutes—including 3 that indicated
                      they had tracking systems—reported that they would have to search
                      through individual paper or electronic grant files. Five Institutes
                      indicated that they would retrieve this information from OER.


        NIH is not aware of the types of financial            Although Federal regulations
    conflicts of interest that exist within grantee           require grantee institutions to
 institutions because details are not required to             report financial conflicts of
be reported and most conflict-of-interest reports             interest, the regulations do not
                                                              require them to report the
            do not state the nature of the conflict
                                                              nature or other details of the
                                                              financial conflict of interest.
                      Because these reports contain minimal detail, grants officials do not
                      know what type of conflicts exist and have little information on which to
                      follow up.

                      The majority of reports did not list which individuals associated with
                      the grants had the reported conflicts of interest. Of the 438 financial
                      conflict-of-interest reports we received, 99 stated that the primary
                      investigators had conflicts and 51 stated that others had conflicts.12
                      From the information presented in the remaining 288 financial
                      conflict-of-interest reports, we could not determine who had conflicts.


                          12 The primary investigator is the individual, designated by the grantee, responsible for
                      the scientific or technical aspects of the grant and for day-to-day management of the project
                      or program.



    OEI-03-06-00460   N AT I O N A L I N S T I T U T E S   OF   H E A LT H : C O N F L I C T S   OF   INTEREST   IN   EXTRAMURAL RESEARCH   11
F 	I N D I N G 
S


                   Although 93 percent of reports (408) did not detail the nature of the
                   financial conflicts of interest, we reviewed 30 reports that included
                   detailed descriptions. Some of the financial conflicts of interest that
                   were detailed include:

                               •	       investigators who invented technology or have intellectual
                                        property associated with the grant research,

                               •	       investigators who have relationships with or financial interests
                                        in companies that are subcontractors on the grants,

                               •	       investigators whose spouses are subcontractors of the grant,
                                        and
                               •	       a grantee institution holding patents on technology used in the
                                        grant research and exclusively licensing the intellectual
                                        property to a company whose investors/owners are
                                        investigators on the grant.

                   Eighty-nine percent of reports (388) did not explain how conflicts are
                   managed but provided general statements saying that the financial
                   conflict of interest would be managed, reduced, or eliminated. The
                   remaining 50 reports provided a description of how conflicts would be
                   managed, reduced, or eliminated. Two-thirds of these reports stated
                   that the conflicts would be managed through a process of disclosure but
                   did not explain how the conflicts would be disclosed. Fifteen reports
                   provided more detailed descriptions of how conflicts would be managed,
                   reduced, or eliminated. These methods included disclosing the financial
                   conflicts of interest in presentations and publications related to the
                   research, appointing independent faculty members to provide oversight
                   of the grant research or to review research reports, recusing
                   investigators from the grants, and terminating relationships with
                   companies.

                   The type of information we reviewed in the 30 reports that detailed the
                   nature of conflicts and the 15 reports that detailed the management of
                   conflicts could assist NIH officials in determining whether followup with
                   the grantee institution is necessary. However, we found five cases in
                   which a grantee institution resubmitted reports because NIH felt that
                   the information originally provided was too specific or detailed. These
                   five letters from the grantee institution stated that an assistant grants
                   compliance officer at NIH advised a grantee that the previously
                   submitted conflict-of-interest report included too much information.



 OEI-03-06-00460   N AT I O N A L I N S T I T U T E S   OF   H E A LT H : C O N F L I C T S   OF   INTEREST   IN   EXTRAMURAL RESEARCH   12
F   I N D I N G         S


                      To address the NIH officer’s concerns, the grantee institution submitted
                      abbreviated versions of the reports.

       Many NIH Institutes’ primary method of oversight is                According to the NIH
                                                                          Grants Policy
          reliance on grantee institutions’ assurances that
                                                                          Statement, the
      financial conflict-of-interest regulations are followed
                                                                          grantee’s roles and
                      responsibilities have assumed greater importance as NIH relegates
                      greater decisionmaking authority to grantees. While each Institute is
                      responsible for the overall management of the grants it funds, the
                      responsibility for promoting objectivity in research lies with the grantee
                      institution. The designated representative of the grantee institution is
                      responsible for ensuring that the grantee organization complies with
                      applicable Federal laws and regulations. Many Institutes rely on the
                      good faith of the grantee institution to ensure compliance with Federal
                      financial conflict-of-interest regulations, rather than directly overseeing
                      or reviewing grantee institutions’ management of financial conflicts of
                      interest.
                      The majority of the Institutes do not have any proactive methods to ensure
                      that grantees have financial conflict-of-interest policies
                      Grantee institutions are required to certify in all NIH grant applications
                      that they are in compliance with 42 CFR Part 50 Subpart F and, thus,
                      have a financial conflict-of-interest policy in place. Ten Institutes
                      indicated that the only method they use to ensure that grantees have
                      these polices is the grantees’ self-certification of compliance on the initial
                      grant applications. Five Institutes stated that they rely solely on
                      information published by NIH and/or OER to ensure that grantees have
                      financial conflict-of-interest policies in place. OER provides Institutes and
                      grantees with information about the relevant policies and regulations
                      through its Web site. OER also conducts outreach activities, such as
                      targeted site reviews, regional seminars, and a bimonthly newsletter to
                      grantee institutions. Two Institutes reported that they do nothing to
                      ensure that grantees have financial conflict-of-interest policies in place.

                      Some Institutes use some type of outreach method to ensure that grantee
                      institutions have conflict-of interest-policies. Three Institutes use site
                      visits and training seminars to ensure that grantee institutions have
                      policies in place. One Institute reported that it follows up with grantees if
                      it has any concerns. Three other Institutes reported that they use more
                      than one of the methods described above.



    OEI-03-06-00460   N AT I O N A L I N S T I T U T E S   OF   H E A LT H : C O N F L I C T S   OF   INTEREST   IN   EXTRAMURAL RESEARCH   13
F   I N D I N G 
S


                      Many Institutes rely solely on grantees’ assurances that they are
                      appropriately reporting and managing, reducing, or eliminating financial
                      conflicts of interest
                      Nine Institutes indicated that they rely solely on the grantees to ensure
                      reporting of financial conflicts of interest. Another four Institutes rely
                      on the grantee institutions’ self-certification of compliance on the grant
                      applications. An additional four rely on the grant applications and/or
                      the information published by NIH (including OER) to ensure that
                      grantees are reporting conflicts.

                      Five Institutes reported using a number of methods, including outreach,
                      training, and site visit activities, to ensure that grantees are reporting
                      conflicts. One Institute follows up with grantees that it believes may
                      have reporting problems. For the remaining Institute, we could not
                      determine from its response how it ensures that grantees are reporting
                      conflicts.

                      When asked what procedures they have for ensuring that financial
                      conflicts of interest are being managed, reduced, or eliminated,
                      17 Institutes answered that they rely on grantees to do this. Four
                      Institutes stated they do follow up or remind grantee institutions in
                      acknowledgment letters about this requirement. Two rely on published
                      NIH policies. One Institute uses a checklist when reviewing grant
                      renewal applications to ensure that grantee institutions have
                      procedures in place.
                      Institutes infrequently and inconsistently follow up on reported financial
                      conflicts of interest
                      Although OER has followed up with grantee institutions during the
                      small number of targeted site reviews it has performed (18 in FY 2006),
                      in our review of the documentation, we observed very few instances in
                      which Institutes followed up with grantee institutions regarding the
                      nature or management of financial conflicts of interest. Instead, we
                      found internal memorandums from one Institute that stated, “. . . if you
                      have any concern that this [conflict] could harm the project, we can ask
                      for additional information, however, this would only be done in
                      rare/exceptional situations. . . .” An internal memorandum from
                      another Institute stated, “We should not follow up for additional details
                      about the nature of the conflict or how it was managed unless there is
                      sufficient programmatic concern to do so.”

                      Our survey results confirm that some Institutes do not follow up on
                      reported financial conflicts of interest. Eight Institutes stated that they

    OEI-03-06-00460   N AT I O N A L I N S T I T U T E S   OF   H E A LT H : C O N F L I C T S   OF   INTEREST   IN   EXTRAMURAL RESEARCH   14
F   I N D I N G         S


                      never needed to follow up with grantee institutions regarding reported
                      financial conflicts of interest. In addition, Institutes varied on what
                      types of information they would request when following up with grantee
                      institutions. Seven Institutes stated that they would request additional
                      information from grantee institutions such as investigators’ names,
                      grant numbers, and financial conflict-of-interest policies. Five
                      Institutes indicated that if followup was needed, they would ask for
                      additional information regarding the nature of the financial conflict of
                      interest and/or how the financial conflict of interest would be managed.
                      Two Institutes indicated that they would request a combination of
                      information described above. Another two Institutes did not respond to
                      our question about followup with grantees.




    OEI-03-06-00460   N AT I O N A L I N S T I T U T E S   OF   H E A LT H : C O N F L I C T S   OF   INTEREST   IN   EXTRAMURAL RESEARCH   15
Δ   R E C O M M E N D A T I O N S


                  RECOMMENDATIONS
                  NIH provides billions of dollars to institutions in the form of research
                  grants. It is imperative that the funds provided to grantee institutions
                  be used appropriately and that the research conducted using these
                  funds not be biased because of any conflicting financial interests of
                  investigators. The responsibility of complying with Federal financial
                  conflict-of-interest regulations ultimately falls to the grantee
                  institutions. However, as an oversight body, NIH should take a more
                  active role in overseeing financial conflicts of interest among grantee
                  institutions.

                  We recommend that NIH:
                  Increase Oversight of Grantee Institutions To Ensure Their Compliance With
                  Federal Financial Conflict-of-Interest Regulations
                  OER and each of the grant-making Institutes should expand oversight
                  activities to ensure that grantee institutions have financial
                  conflict-of-interest policies and procedures that comply with Federal
                  regulations. Options to implement this recommendation could include
                  increasing site visits by OER and Institutes’ collecting and reviewing
                  grantee institutions’ financial conflict-of-interest policies.
                  Require Grantee Institutions To Provide Details Regarding the Nature of
                  Financial Conflicts of Interest and How They Are Managed, Reduced, or
                  Eliminated

                  It is difficult to determine whether followup with grantee institutions is
                  warranted if the details regarding the nature and management of financial
                  conflicts of interest are not collected. Although the current regulations
                  authorize NIH to seek additional information regarding any conflicting
                  interest and how the interest was managed, grantees are initially required
                  to report so little information that NIH would rarely have reason to even
                  know that it should request follow-up information. Collecting basic details
                  regarding the nature of financial conflicts of interest and how they are
                  managed might enable NIH to question whether certain conflicts could
                  affect the grant research being conducted. Collecting this information
                  might also enable NIH to determine whether grantee institutions are
                  appropriately managing specific types of financial conflicts of interest.

                  We recommend that 45 CFR § 50.604(g)(2) be amended to require grantee
                  institutions to report certain details to the appropriate HHS public health
                  research funding agency—in this case NIH—about any conflicting
                  financial interest and how it was managed, reduced, or eliminated.

OEI-03-06-00460   N AT I O N A L I N S T I T U T E S   OF   H E A LT H : C O N F L I C T S   OF   INTEREST   IN   EXTRAMURAL RESEARCH   16
R   E C O        M M E N D A T                             I O N                S


                      Enough details should be provided so that NIH can identify concerns and
                      adequately monitor whether grantees are complying with the regulatory
                      requirements to identify and manage conflicts. We recognize that this
                      regulation is applicable to all Public Health Service research grants or
                      cooperative agreements. Because NIH is responsible for the largest share
                      of public health research funding, we recommend that NIH work with the
                      Secretary’s Office to amend the current regulation. In the meantime, we
                      recommend that, after a grantee submits a report identifying the existence
                      of a conflict, NIH use the current regulatory authority at
                      42 CFR § 50.604(g)(3) to request details about the particular financial
                      conflict of interest and how it was managed, reduced, or eliminated.
                      Require Institutes To Forward to OER All Financial Conflict-of-Interest
                      Reports That They Receive From Grantee Institutions and Ensure That
                      OER’s Conflict-of-Interest Database Contains Information on All
                      Conflict-of-Interest Reports Provided by Grantee Institutions
                      Although OER asks Institutes to forward financial conflict-of-interest
                      reports to OER, Institutes are not required to do so. A central repository
                      for financial conflict-of-interest reports would enable NIH to have a more
                      accurate picture of the number and nature of financial conflicts of interest
                      reported to NIH. The absence of financial conflict-of-interest reports from
                      grantee institutions does not necessarily indicate a problem. However,
                      with a complete and comprehensive OER conflict-of-interest database,
                      NIH can look at reporting and management trends and thus focus
                      training and outreach efforts on grantee institutions where it sees
                      potential issues or problems. Therefore, Institutes should be required to
                      send all conflict-of-interest reports to OER for inclusion in its database.
                      NIH staff informed us that OER had recently developed a Web-based
                      financial conflict of interest tracking and monitoring system for internal
                      NIH use. Institute grants management and program staff will be able
                      to enter their own records and view financial conflict-of-interest reports
                      across NIH. The database will remind grants management personnel to
                      send an acknowledgment to the institution and a copy of the report to
                      OER. The database is in the testing phase and NIH expects to make its
                      use mandatory in 2008.

                      We recommend that this new system capture the following information
                      about each grant listed on a conflict-of-interest report: the grant
                      number; the name of investigator or other individual or entity with the
                      financial conflict of interest; a description of the nature of the conflict;
                      and a description of how the conflict is managed, reduced, or eliminated.


    OEI-03-06-00460   N AT I O N A L I N S T I T U T E S   OF   H E A LT H : C O N F L I C T S   OF   INTEREST   IN   EXTRAMURAL RESEARCH   17
R   E C O        M M E N D A T                             I O N                S


                      In the future, NIH also plans to permit grantee institutions to
                      electronically submit financial conflict-of-interest reports through eRA
                      Commons, which is NIH’s Web-based system that grantees use to
                      conduct their extramural research administration business
                      electronically.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      NIH stated that all of our findings were correct and concurred with two
                      of our three recommendations. NIH did not concur with our
                      recommendation to require grantee institutions to provide details
                      regarding the nature of financial conflicts of interest and the way in
                      which they are managed, reduced, or eliminated. NIH believes that
                      although it is vital to maintain objectivity in research, responsibilities
                      for identifying and managing financial conflicts of interest must remain
                      with grantee institutions. NIH also points to 42 CFR Part 50, Subpart
                      F, which assigns responsibility for identifying and managing financial
                      conflicts of interest to grantee institutions rather than to the Federal
                      Government. Furthermore, NIH stated that its collection of specific
                      details of the nature and management of financial conflicts of interest
                      would effectively transfer the responsibility for managing financial
                      conflicts of interest from the grantee institutions to the Federal
                      Government. The full text of NIH’s comments is presented in the
                      Appendix.

                      The Office of Inspector General (OIG) continues to recommend that NIH
                      should collect details of the nature and management of financial
                      conflicts of interest as part of its oversight responsibility of grantee
                      institutions. Collection of this information can be accomplished without
                      interfering with grantee institutions’ legal responsibility for managing
                      financial conflicts of interest.

                      We continue to recommend that NIH work with the Secretary of the
                      Department of Health and Human Services to amend the current
                      regulation and that NIH use its authority pursuant to
                      42 CFR § 50.604(g)(3) to request details regarding the nature and
                      management of financial conflicts of interest at grantee institutions.




    OEI-03-06-00460   N AT I O N A L I N S T I T U T E S   OF   H E A LT H : C O N F L I C T S   OF   INTEREST   IN   EXTRAMURAL RESEARCH   18
Δ   A P P E N D I X



Agency Comments




OEI-03-06-00460   N AT I O N A L I N S T I T U T E S   OF   H E A LT H : C O N F L I C T S   OF   INTEREST   IN   EXTRAMURAL RESEARCH   19
A P P E N D        I X 





 OEI-03-06-00460   N AT I O N A L I N S T I T U T E S   OF   H E A LT H : C O N F L I C T S   OF   INTEREST   IN   EXTRAMURAL RESEARCH   20
A P P E N D        I X 





 OEI-03-06-00460   N AT I O N A L I N S T I T U T E S   OF   H E A LT H : C O N F L I C T S   OF   INTEREST   IN   EXTRAMURAL RESEARCH   21
A P P E N D        I X 





 OEI-03-06-00460   N AT I O N A L I N S T I T U T E S   OF   H E A LT H : C O N F L I C T S   OF   INTEREST   IN   EXTRAMURAL RESEARCH   22
Δ   A C K N O W L E D G M E N T S

                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and Linda M. Ragone, Deputy Regional Inspector
                  General.

                  Tanaz Dutia served as the team leader for this study. Other principal
                  Office of Evaluation and Inspections staff from the Philadelphia
                  regional office who contributed to this report include Diane Epstein and
                  Maria Johnson, and central office staff who contributed include Ayana
                  Everett.




OEI-03-06-00460   N AT I O N A L I N S T I T U T E S   OF   H E A LT H : C O N F L I C T S   OF   INTEREST   IN   EXTRAMURAL RESEARCH   23
